HHS/OIG-Audit--"TrailBlazer Health Enterprises, LLC Audit of Medicare Claims by Podiatrists and Optometrists for Comprehensive Nursing Facility Assessments for Calendar Years 1995 through 1998, (A-09-00-00071)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"TrailBlazer Health Enterprises, LLC: Audit of Medicare Claims by Podiatrists
and Optometrists for Comprehensive Nursing Facility Assessments for Calendar
Years 1995 through 1998," (A-09-00-00071)
October 30, 2000
Complete
Text of Report is available in PDF format (1.5 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our audit of claims by podiatrists
and optometrists for comprehensive nursing facility (CNF) assessments during
Calendar Years 1995 through 1998. We found that Texas podiatrists and optometrists
inappropriately billed Medicare for CNF assessment services totaling $3,939,316
and $2,191,830, respectively. TrailBlazer paid $2,166,213 and $1,316,246 for
their claims. We recommended that TrailBlazer: (1) issue a reminder to podiatrists
and optometrists not to bill for any service they are not licensed to perform,
and (2) implement computer edits to prevent payment of CNF assessments claimed
by podiatrists and optometrists. TrailBlazer agreed with our audit findings
and recommendations, and have implemented the recommended corrective actions.
We have requested that TrailBlazer not seek recovery of the overpayments at
this time as we are still evaluating the issue.